Nos. 19-267, 19-348
In the

Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.
ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL,
Respondent.
On Writs of Certiorari to the United States
Court of Appeals for the Ninth Circuit
BRIEF AMICI CURIAE OF BILLY GRAHAM
EVANGELISTIC ASSOCIATION, SAMARITAN’S
PURSE, FORCEY CHRISTIAN SCHOOL,
CONGRESSIONAL PRAYER CAUCUS
FOUNDATION, INTERNATIONAL CONFERENCE
OF EVANGELICAL CHAPLAIN ENDORSERS,
NATIONAL LEGAL FOUNDATION, AND PACIFIC
JUSTICE INSTITUTE
in support of Petitioners

Steven W. Fitschen

Frederick W. Claybrook, Jr.

James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, Va. 23322

Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001

David A. Bruce
205 Vierling Dr.
Silver Spring, Md. 20904

Counsel of Record

i
Table of Contents
Table of Authorities .................................................... ii
STATEMENTS OF INTERESTS ............................... 1
SUMMARY OF THE ARGUMENT ........................... 4
ARGUMENT ............................................................... 6
I.

The Ministerial Exception Protects Religious
Organizations Other Than Houses of
Worship and Their Schools. ............................. 6

II.

The Ministerial Exception’s Application
Must Be Grounded in Basic First
Amendment Principles, Rather Than by
Comparisons to the Teacher in HosannaTabor............................................................... 10

III.

Justice Thomas’s Approach to Determining
the Scope of the Ministerial Exception
Is the Correct One. ......................................... 15

IV.

Several Amici Demonstrate the Importance
That This Court Adopt Justice Thomas’s
Test for the Exception. ................................... 23

CONCLUSION.......................................................... 26
APPENDIX......................................................................... 1a

ii
Table of Authorities
Cases
Bd. of Airport Comm’rs of LA v. Jews for Jesus,
Inc., 482 U.S. 569 (1987) ....................................... 14
Biel v. St. James Sch.,
911 F.3d 603 (9th Cir. 2018) ................................. 11
Biel v. St. James Sch.,
926 F.3d 1238 (9th Cir. 2019)
(denial of en banc rehearing) ................................ 14
Broadrick v. Okla., 413 U.S. 601 (1973) .................. 14
Cannata v. Catholic Diocese of Austin,
700 F.3d 169 (5th Cir. 2012) ................................. 20
Conlon v. InterVarsity Christian Fellowship/USA,
777 F.3d 829 (6th Cir. 2015) ............................... 7, 9
Corp. of Presiding Bishop of Church of Jesus
Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1987) ........................................ passim
EEOC v. Catholic Univ.,
83 F.3d 455 (D.C. Cir. 1996) ................................... 6
Fowler v. R.I., 345 U.S. 67 (1953) ...................... 12, 13
Fratello v. Archdiocese of N.Y.,
863 F.3d 190 (2d Cir. 2017).............................. 18-20
Grussgott v. Milwaukee Jewish Day Sch., Inc.,
882 F.3d 655 (7th Cir. 2018) ............................ 17-18
Hollins v. Methodist Healthcare, Inc.,
474 F.3d 223 (6th Cir. 2007) ................................... 6

iii
Hosanna-Tabor Evangelical Lutheran Church
and School v. EEOC, 565 U.S. 171 (2012)..... passim
Kedroff v. St. Nicholas Cath. of Russ. Orthodox
Church in N. Am., 344 U.S. 94 (1952) .................. 10
Kennedy v. Bremerton Sch. Dist.,
869 F.3d 813 (9th Cir. 2017) ................................. 14
Larson v. Valente, 456 U.S. 228 (1982) .................... 12
McClure v. Salvation Army,
460 F.2d 553 (5th Cir. 1972) ................................... 6
Meek v. Pittenger, 421 U.S. 349 (1975) .................... 17
Niemotko v. Md., 340 U.S. 268 (1951) ...................... 12
NLRB v. Cath. Bishop of Chi.,
440 U.S. 490 (1979) ............................................... 16
Petruska v. Gannon Univ.,
462 F.3d 294 (3d Cir. 2006)..................................... 6
Sch. Dist. of Abington Twp. v. Schempp,
374 U.S. 203 (1963) ............................................... 18
Scharon v. St. Luke’s Epis. Pres. Hosps.,
929 F.2d 360 (8th Cir. 1991) ................................... 6
Schleicher v. Salvation Army,
518 F.3d 472 (7th Cir. 2008) ................................... 6
Serbian E. Orthodox Diocese for U.S.A. and Can.
v. Milivojevich, 426 U.S. 696 (1976) ..................... 13
Shaliehsabou v. Hebrew Home of Greater Wash.,
Inc., 363 F.3d 299 (4th Cir. 2004) ................... 6, 7, 9

iv
Sterlinski v. Cath. Bishop of Chi.,
934 F.3d 568 (7th Cir. 2019) ........................... 20, 22
Thomas v. Review Bd., 450 U.S. 707 (1981) ............ 26
Watson v. Jones, 80 U.S. 679 (1871) ........................ 13
Statutes
IRC, 26 U.S.C.
§ 170(b)(1)(A)(i)........................................................ 9
§ 509(a)(1) ................................................................ 9
Other Authorities
James A. Davids, “Religious Colleges’
Employment Rights Under the ‘Ministerial
Exception’ and When Disciplining an
Employee for Sexually Related Conduct,”
21 Tex. Rev. of Law & Politics 423 (2017) .............. 9

1
STATEMENTS OF INTERESTS1
The
Billy
Graham
Evangelistic
Association (BGEA) was founded by Billy Graham
in 1950 and, continuing the lifelong work of Billy
Graham, exists to support and extend the
evangelistic calling and ministry of Franklin Graham
by proclaiming the Gospel of the Lord Jesus Christ to
all it can by every effective means available to it and
by equipping the church and others to do the same.
BGEA ministers to people around the world through
a variety of activities including Decision America
Tour prayer rallies, evangelistic festivals and
celebrations, television and internet evangelism, the
Billy Graham Rapid Response Team, the Billy
Graham Training Center at the Cove, and the Billy
Graham Library. Through its various ministries and
in partnership with others, BGEA strives to
represent Jesus Christ in the public square, to
cultivate prayer, and to proclaim the Gospel. BGEA
believes that, to fulfill its mission, it is essential that
its employees share its religious beliefs and
acknowledge that those beliefs are put into action
through BGEA in pursuit of its religious mission and
objectives.
Samaritan’s Purse is a nondenominational,
evangelical Christian organization formed in 1970 to
provide spiritual and physical aid to hurting people
around the world. It seeks to follow the command of
The parties have consented to the filing of this brief in
writing. No counsel for any party authored this brief in
whole or in part. No person or entity other than amici and
their counsel made a monetary contribution intended to
fund the preparation or submission of this brief.
1

2
Jesus to “go and do likewise,” true to the story of the
Samaritan who helped a hurting stranger.
Samaritan’s Purse operates in over 100 countries
providing emergency relief, community development,
vocational programs, and resources for children, all
in the name of Jesus Christ. Samaritan’s Purse
believes that its mission can only be properly fulfilled
by employees who share its religious commitments.
Forcey Christian School (FCS) in Silver
Spring, Maryland, is a K-8 school serving the local
community. FCS is a ministry of Forcey Bible
Church and is co-located on the church grounds.
Forcey Bible Church is a non-denominational,
Christian church whose mission is to live out the
gospel by service to others, biblical teaching, and
evangelization, and FCS is an important outreach of
the church. Its teachers and administrative staff are
required to endorse a statement of faith and to abide
by standards of conduct consistent with their
profession of biblical Christianity. All teachers
engage in religious instruction of their students, but
teachers are not required to be ordained or to have a
formal religious degree.
The
Congressional
Prayer
Caucus
Foundation (CPCF) is an organization established
to protect religious freedoms (including those related
to America’s Judeo-Christian heritage) and to
promote prayer (including as it has traditionally
been exercised in Congress and other public places).
It is independent of, but traces its roots to, the
Congressional Prayer Caucus that currently has over
100 representatives and senators associated with it.
CPCF
reaches
across
all
denominational,
socioeconomic, political, racial, and cultural dividing

3
lines. It has an associated national network of
citizens, legislators, pastors, business owners, and
opinion leaders hailing from thirty-three states. To
fulfill its religious mission, it requires its employees
to be co-religionists.
The
International
Conference
of
Evangelical Chaplain Endorsers (ICECE) has as
its main function the endorsement of chaplains who
lack a denominational structure for endorsement.
This method for endorsing chaplains for the military
and other organizaitons avoids the entanglement
with religion that the government would otherwise
have if it determined chaplain endorsements. ICECE
safeguards religious liberty for chaplains and all
military personnel.
The National Legal Foundation (NLF) is a
public interest law firm dedicated to the defense of
First Amendment liberties and the restoration of the
moral and religious foundation on which America
was built. The NLF and its donors and supporters,
including those in California, seek to ensure that an
historically accurate understanding of the Religion
Clauses is presented to our country’s judiciary. NLF
often represents religious organizations that do not
easily fit into either a church or church school mold.
But those organizations have important ministries
fueled by their religious beliefs—for example, work
in disaster relief and “lifestyle” evangelization—that
often do not involve explicit teaching or conducting
standard “worship services” or “rituals.”
The Pacific Justice Institute (PJI) is a nonprofit legal organization established under Section
501(c)(3) of the Internal Revenue Code. Since its

4
founding in 1997, PJI has advised and represented in
court and administrative proceedings thousands of
individuals, businesses, and religious institutions,
particularly in the realm of First Amendment rights.
As such, PJI has a strong interest in the
development of the law in this area. PJI often
represents religious organizations that do not easily
fit into either a church or church school mold but
which have important ministries fueled by their
religious beliefs. Those organizations sincerely
believe that many of their employee positions should
be filled by co-religionists in order to perform the
organization’s ministries to which they are called.
SUMMARY OF THE ARGUMENT
This Court in Hosanna-Tabor Evangelical
Lutheran Church and School v. EEOC2 confirmed
that the Constitution requires the exemption of at
least some employees of some religious organizations
from nondiscrimination laws. Now this Court should
articulate more specifically the circumstances in
which the exception applies.
In Hosanna-Tabor, while eschewing setting
out any rigid test, this Court did establish three
important principles that help define the scope of the
ministerial exception. One, the First Amendment
safeguards from interference by the State at least
some employment decisions of religious organizations
that are not prototypical worship centers, like
religious schools. Two, the ministerial exception
covers more than just the top-tier officials of religious
2

565 U.S. 171 (2012).

5
organizations. And, three, an employee need not
perform exclusively what an outsider might consider
“religious” activities to qualify as a “minister” under
the exception.
Amici either are, or commonly represent,
organizations that are not traditional places of
worship,
but,
nevertheless,
are
religious
organizations because they are founded for religious
reasons, affirm religious principles, and carry out
religiously inspired ministries. One amicus is a
church school, but of a non-denominational
character, unlike the Lutheran Church—Missouri
Synod school involved in Hosanna-Tabor. These
religious organizations and ones like them are
protected by the religious exception, which at a most
basic level includes decisions of the religious
organization as to who best carries out its religious
mission.
Justice
Brennan
rightly
observed,
“Determining that certain activities are in
furtherance of an organization's religious mission,
and that only those committed to that mission should
conduct them, is . . . a means by which a religious
community defines itself.”3
In deciding the contours of the “ministerial
exception,” this Court should hew to the overriding
demands of the Religion Clauses that the
government keep out of the business of divining
religious doctrine and that it refrain from secondguessing judgment calls of religious organizations
about how they should perform their mission. To do
Corp. of Presiding Bishop of Church of Jesus Christ of
Latter-day Saints v. Amos, 483 U.S. 327, 342 (1987)
(Brennan, J., concurring).
3

6
so, this Court should adopt the standard advocated
by Justice Thomas in his concurring opinion in
Hosanna-Tabor, which requires a court “to defer to a
religious organization’s good-faith understanding of
who qualifies as a minister.”4
ARGUMENT
I.

The Ministerial Exception Protects
Religious Organizations Other Than
Houses of Worship and Their Schools.

From the outset, the courts of appeal have
applied the ministerial exception to religious
organizations other than traditional houses of
worship such as churches, synagogues, and mosques.
In two of the leading cases, the Fifth and Seventh
Circuits applied it to the Salvation Army, a religious
organization engaged in both evangelistic and social
welfare activities.5 The Fourth Circuit applied it to a
Jewish nursing home.6
The Sixth and Eighth
Circuits, to denomination-related hospitals.7 The
D.C. and Third Circuits, to Catholic universities.8
565 U.S. at 196 (Thomas. J., concurring).
See Schleicher v. Salvation Army, 518 F.3d 472, 475 (7th
Cir. 2008); McClure v. Salvation Army, 460 F.2d 553 (5th
Cir. 1972).
6 See Shaliehsabou v. Hebrew Home of Greater Wash.,
Inc., 363 F.3d 299, 310 (4th Cir. 2004).
7 See Hollins v. Methodist Healthcare, Inc., 474 F.3d 223,
223-25 (6th Cir. 2007); Scharon v. St. Luke’s Epis. Pres.
Hosps., 929 F.2d 360, 362-63 (8th Cir. 1991).
8 See Petruska v. Gannon Univ., 462 F.3d 294, 303-07 (3d
Cir. 2006); EEOC v. Catholic Univ., 83 F.3d 455, 460-63
(D.C. Cir. 1996).
4
5

7
And, of course, this Court, in Hosanna Tabor itself,
applied it to a church-affiliated, K-8 school.9
After Hosanna Tabor, the Sixth Circuit
applied the ministerial exception to the InterVarsity
Christian Fellowship/USA, “an evangelical campus
mission serving students and faculty on college and
university campuses nationwide.”10 It noted that
IVCF’s stated purposes included establishing
“witnessing communities” of Christians on campuses,
that the organization’s beliefs included the “sanctity
of marriage,” and that IVCF restricted employment
opportunities to those who conformed in faith and
practice with its own beliefs.11 In finding IVCF to
qualify as a “religious group” for purposes of the
ministerial exception, the Sixth Circuit adopted the
Fourth Circuit’s formulation: “[A] religiously
affiliated entity is one whose mission is marked by
clear or obvious religious characterisitics.”12
This Court should adopt the same rule,
allowing organizations with an obvious religious
character to qualify for the ministerial exception
despite their not being what is considered a
“traditional church” or denomination. Indeed, many
religious organizations, similar to IVCF, have a
sincere belief that their mission is best accomplished
by associating employees who are, both in belief and
conduct, among those faithful to the organization’s
565 U.S. at 177.
Conlon v. InterVarsity Christian Fellowship/USA, 777
F.3d 829, 831 (6th Cir. 2015).
11 Id.
12 Id. at 834 (quoting Shaliehsabou, 363 F.3d at 310;
internal quotation marks omitted).
9

10

8
doctrines and purposes. For instance, amicus Billy
Graham Evangelistic Association in its employee
handbook provides as follows:
As an ambassador of the Gospel of Jesus
Christ and of BGEA, each employee is expected to
exhibit conduct consistent with the highest degree
of moral, ethical, and Biblical integrity and
fidelity. . . .
....
All employees must indicate and demonstrate
ongoing
agreement
with
the
following
expectations:
• I acknowledge that the Lord Jesus Christ is
my personal Savior and that I am a personal
representative of Him.
• I understand that BGEA is a Christian
organization whose purpose is proclaiming the
message of the Gospel of the Lord Jesus Christ
throughout the world.
• I agree that the purpose of my employment
with BGEA is to further its Christian purpose
and that I am prepared to support its work
through prayer and to assist in accomplishing
BGEA’s mission.
• I understand that I must exhibit conduct
that is consistent with BGEA’s expectations,
whether at work or away from work, in keeping
with Scriptural teachings and principles as set
forth in God’s Word, BGEA’s Statement of Faith,

9
and BGEA’s
Conduct.

policies,

including

Christian

• I understand that BGEA has the right and
the responsibility to ensure that its Christian
religious purpose is carried on with the highest
standards and is not harmed or impeded by
conduct that is inconsistent with the Bible,
BGEA’s Statement of Faith, its Christian
religious purpose, or its policies. (App’x 1a-3a.)
Similar statements made by other amici in their
internal governance documents are in the appendix.
The bottom line is that many religious
organizations other than traditional houses of
worship believe it critical to employ those personally
committed to its religious purposes. This Court
rightly held in Hosanna-Tabor that the ministerial
exception covers such organizations as well.13 It
should take this opportunity to clarify that the
exception covers any organization “whose mission is
marked
by
clear
or
obvious
religious
characteristics.”14

Many religious organizations like amici BGEA and
Samaritan’s Purse are considered an “association of
churches” and are classified the same as churches by the
IRS under IRC §§ 509(a)(1) and 170(b)(1)(A)(i).
14 Shaliehsabou, 363 F.3d at 310; accord Conlon, 777 F.3d
at 834; see generally James A. Davids, “Religious
Colleges’ Employment Rights Under the ‘Ministerial
Exception’ and When Disciplining an Employee for
Sexually Related Conduct,” 21 Tex. Rev. of Law & Politics
423 (2017).
13

10
II.

The Ministerial Exception’s Application
Must Be Grounded in Basic First
Amendment Principles, Rather Than by
Comparisons
to
the
Teacher
in
Hosanna-Tabor.

This Court in its majority decision in
Hosanna-Tabor properly began with first principles:
the Religion Clauses themselves and the protection
they offer to religious individuals and organizations.
Simply stated, the Free Exercise and Establishment
Clauses mutually reinforce the principle that
government must not interfere with the internal
affairs and practices of religious organizations.15
More particularly, as this Court noted, religious
organizations have the “power to decide for
themselves, free from state interference, matters of
church government as well as those of faith and
doctrine.”16
Applying first principles requires looking
beyond the term minister. The Constitution does not
use the term, and the concerns that activate the
“ministerial exception” apply more broadly than just
to the leader of a religious organization, as this Court
properly recognized in Hosanna-Tabor.17
Religious organizations are typically operated
by more than just their leaders, and those same
organizations often believe it essential to their
ministries to require fidelity to their own first
565 U.S. at 183-87.
Id. at 186 (quoting Kedroff v. St. Nicholas Cath. of Russ.
Orthodox Church in N. Am., 344 U.S. 94, 116 (1952)).
17 See id. at 190.
15
16

11
principles of faith and conduct by most, if not all, of
their employees. The determination by an
organization of which employees must do so is a
function of the organization’s ministry purpose, its
size, its logistical circumstances, and, always, its
understanding of its own religious beliefs and how
best to fulfill its mission.
The Ninth Circuit in the cases here on appeal
ignored first principles, tying the analysis instead to
the particular facts in Hosanna-Tabor. One can
divide the circumstances this Court listed for the
teacher involved in Hosanna-Tabor into four general
categories, as the Ninth Circuit did in Biel v. St.
James School.18 Or one could itemize each of the
facts mentioned about the teacher in Hosanna-Tabor,
listing them into the teens. The Ninth Circuit’s
approach of toting up the numbers converts the legal
calculus into how closely analogous to the HosannaTabor teacher’s circumstances the next situation
happens to be.
Justice Thomas in his concurrence in
Hosanna-Tabor presciently warned of the temptation
to which the Ninth Circuit succumbed:
Our country’s religious landscape includes
organizations
with different
leadership
structures and doctrines that influence their
conceptions of ministerial status. The question
whether an employee is a minister is itself
religious in nature, and the answer will vary
widely. Judicial attempts to fashion a civil
definition of “minister” through a bright-line
18

911 F.3d 603, 607-08 (9th Cir. 2018).

12
test
or
multi-factor
analysis
risk
disadvantaging those religious groups whose
beliefs, practices, and membership are outside
of the “mainstream” or unpalatable to some.
Moreover, uncertainty about whether its
ministerial designation will be rejected, and a
corresponding fear of liability, may cause a
religious group to conform its beliefs and
practices regarding “ministers” to the
prevailing secular understanding.19
The Ninth Circuit’s method is not only
impractical because, as Justice Thomas pointed out,
religious organizations vary greatly in purpose,
structure, mission, and doctrine; it also quickly runs
afoul of basic, First Amendment principles. It would
make Lutheran—Missouri Synod polity the
touchstone for future cases, to the disadvantage of
many other denominations and faiths. This has long
been condemned as forbidden by the Religion
Clauses. As this Court stated in Larson v. Valente,20
“The clearest command of the Establishment Clause
is that one religious denomination cannot be
officially preferred over another.”21
The Ninth Circuit’s method also founders as a
test of the reach of First Amendment protections
because, in making factual decisions as to which
565 U.S. at 197 (Thomas, J., concurring) (citing
Amos, 483 U.S. at 336)).
20 456 U.S. 228, 244 (1982).
21 Accord Fowler v. R.I., 345 U.S. 67, 69-70 (1953); see also
Niemotko v. Md., 340 U.S. 268, 272-73 (1951) (holding
that discrimination among religious denominations
violates equal protection guarantees).
19

13
employees are central enough to a religious
ministry’s purposes to qualify, judges would have to
decide which beliefs are important to a religious
organization and which are not. This would
necessarily involve courts in parsing religious
doctrine and divining the intent of religiously driven
decisions. Once again, this has long been understood
to be foreclosed by the Religion Clauses. As this
Court stated in Fowler v. Rhode Island, “it is no
business of courts to say that what is a religious
practice or activity for one group is not religion under
the protection of the First Amendment.”22
Finally, as Justice Thomas pointed out in the
passage quoted above, the Ninth Circuit’s approach
of adding up similarities and dissimilarities to the
church school teacher situation in Hosanna-Tabor
also has the very real risk of chilling the free exercise
of religion by religious groups and individuals. To try
to “fit” within that framework, they will be pressured
to take organizational steps or positions—ones that
they otherwise would not take.23 This, too,
345 U.S. at 70; see also Amos, 483 U.S. at 339; Serbian
E. Orthodox Diocese for U.S.A. and Can. v. Milivojevich,
426 U.S. 696, 708-09 (1976); Watson v. Jones, 80 U.S. 679,
728-29 (1871).
23 See Amos, 483 U.S. at 336 (“[I]t is a significant burden
on a religious organization to require it, on pain of
substantial liability, to predict which of its activities a
secular court will consider religious. The line is hardly a
bright one, and an organization might understandably be
concerned that a judge would not understand its religious
tenets and sense of mission. Fear of potential liability
might affect the way an organization carried out what it
understood to be its religious mission.”); id. at 344
(Brennan, J., concurring) (“A case-by-case analysis for all
22

14
demonstrates that the Ninth Circuit’s approach does
not comport with the First Amendment. 24
Finally, allowing the judiciary to determine
which employees qualify as “ministers” for purposes
of the exception invites inconsistencies that will be
viewed as simply reflections of the personal
predelictions and understandings of the particular
judges deciding the case. Indeed, Judge Nelson
pointed out in his dissent to the denial of an en banc
rehearing25 that, while the Biel panel found that a
Catholic elementary school teacher who teaches
religion every day was not religious enough for the
ministerial exception to apply, another Ninth Circuit
panel a year earlier in Kennedy v. Bremerton School
District26 found the Religion Clauses were not
violated when a high school coach was fired when he
kneeled by himself on the field after a football game,
reasoning that his job was “akin to being a teacher”
and that he served as “a role model and moral
exemplar” to students who would see his kneeling as
a religious act.27
Courts are in a precarious position when they
take on the task of deciding which positions have
activities therefore would both produce excessive
government entanglement with religion and create the
danger of chilling religious activity.”).
24 See Bd. of Airport Comm’rs of LA v. Jews for Jesus, Inc.,
482 U.S. 569, 574 (1987) (relaxing normal standing rules
when regulation may chill First Amendment expression);
Broadrick v. Okla., 413 U.S. 601, 612 (1973) (same).
25 926 F.3d 1238, 1250 (9th Cir. 2019) (Nelson, J.,
dissenting from denial of rehearing en banc).
26 869 F.3d 813 (9th Cir. 2017).
27 Id. at 825-27.

15
sufficient
religious
significance
to
religious
organizations for purposes of the ministerial
exception. It is a task foreclosed to them by the
Religion Clauses.
III.

Justice Thomas’s Approach to
Determining the Scope of the Ministerial
Exception Is the Correct One.

This question remains: What approach should
the Court adopt to guide future determinations of
whether a religious organization’s employee qualifies
under the ministerial exception? These consolidated
cases provide the opportunity to affirm that the First
Amendment does not allow the government to
second-guess the sincere decision of a religious
organization with respect to who must carry out its
mission.
The majority in Hosanna-Tabor declined to set
out any specific test that could be used in future
cases.28 It found only that, on the facts of that case,
the employment decision of the church school with
respect to a teacher was not reviewable by the
government.29
Justice Alito in his concurrence at least
implicitly warned that courts should not do what the
Ninth Circuit did by treating the Hosanna-Tabor
facts as the touchstone for determining which
employees were covered by the ministerial exception.
He did not attempt to set out a comprehensive test,
though. Instead, he posited a broader definition of
28
29

565 U.S. at 190.
Id.

16
those who were, at a minimum, covered by the
exception: one who “leads a religious organization,
conducts worship services or important religious
ceremonies or rituals, or serves as a messenger or
teacher of its faith.”30
Justice Alito’s expanded definition of
“minister” certainly incorporates those whom
religious organizations consider as important to their
ministries. But his formulation is only a listing of
non-exhaustive descriptors; it does not purport to be
a definition encompassing the universe of covered
“ministers.”31 As a result, Justice Alito’s definitions
do not set out a workable rule for all cases. Justice
Thomas in his concurring opinion does so, and that is
the test that this Court should adopt.
Justice Thomas’s formulation is simply this:
The Religion Clauses require courts to defer to a
religious organization’s good-faith understanding of
who qualifies as its “minister.”32 Stated more
generally, First Amendment protections reach any
employee of a religious organization that the
organization sincerely believes must adhere to its
faith and conduct principles for it to best accomplish
its ministries.33

Id. at 199 (Alito, J., concurring).
Id.
32 Id. at 196 (Thomas, J., concurring).
33 Cf. NLRB v. Cath. Bishop of Chi., 440 U.S. 490, 501-04
(1979) (finding Congress did not intend to give NLRB
jurisdiction over church-related schools in part because it
would raise First Amendment issues).
30
31

17
The error and inconsistency in treating either
the
Hosanna-Tabor
majority’s
particularized
description of the teacher’s characteristics or Justice
Alito’s more generic, “functional” definition as the
controlling test is shown in the case law interpreting
the exception in the wake of Hosanna-Tabor—even
among those decisions that, unlike the Ninth Circuit,
found the exception applicable. For instance, in
Grussgott v. Milwaukee Jewish Day School, Inc.,34
the Seventh Circuit, while recognizing that this
Court “declined” in Hosanna-Tabor “to delineate a
clear test for determining who is a ministerial
employee,”35 proceeded to match up the teacher in
that case with the one in Hosanna-Tabor, finding two
parts of the analysis did not weigh in her favor, i.e.,
her title of “grade school teacher” and how she
“presented herself to the public.”36 The court found
these more than counterbalanced when it analyzed
the “substance” of her responsibilities and whether
they were sufficiently “religious” in function, wading
into the question of whether her instruction was
merely “secular” or “cultural,” rather than
“religious.”37
To its credit, the Seventh Circuit, when
finding in favor of the school, stated what should be
the controlling rules.
It first noted that it is
inappropriate for courts to draw “a distinction
between secular and religious teaching . . . when
882 F.3d 655 (7th Cir. 2018).
Id. at 657.
36 Id. at 659.
37 Id. at 659-60; see also Meek v. Pittenger, 421 U.S. 349,
370 (1975) (noting difficulty of separating the religious
from the secular in a church school setting).
34
35

18
doing so involves the government challenging a
religious institution’s honest assertion that a
particular practice is a tenet of its faith. . . . And not
only is this type of religious line-drawing incredibly
difficult, it impermissibly entangles the government
with religion.”38 What the Seventh Circuit failed to
note is that, if it had applied these principles, its
prior factual analysis of whether the teacher was or
was not involved in sufficiently “religious”
instruction in the court’s eyes should have been
avoided. Instead, as the Seventh Circuit concluded in
tracking the substance of what Justice Thomas
proposed as the governing rule in Hosanna-Tabor,
“This does not mean that we can never question a
religious organization’s designation of what
constitutes religious activity, but we defer to the
organization in situations like this one, where there
is no sign of subterfuge.”39
The Second Circuit in Fratello v. Archdiocese
of New York40 also applied the four-category fact
analysis it distilled from the majority decision in
Hosanna-Tabor in deciding that a principal of a
Catholic school qualified for the ministerial
exception. In doing so, the Second Circuit recognized
that “courts are ill-equipped to assess whether, and
to what extent, an employment dispute between a
882 F.3d at 660 (citing Amos, 483 U.S. at 343 (Brennan,
J., concurring); Sch. Dist. of Abington Twp. v. Schempp,
374 U.S. 203, 306 (1963) (Goldberg, J., concurring)).
39 Id.; see also Hosanna-Tabor, 565 U.S. at 196 (Thomas,
J., concurring); id. at 199 (Alito, J., concurring) (exception
applies if “religious group believes” employee performs
key functions described).
40 863 F.3d 190 (2d Cir. 2017).
38

19
minister and his or her religious group is premised
on religious grounds.”41 Noting that the majority
decision in Hosanna-Tabor explicitly disclaimed
setting out a “rigid formula,” the Second Circuit
found Justice Alito’s concurrence “both persuasive
and extremely helpful” and applied a more
“functional” test.42
Nevertheless, the court walked through the
four categories this Court’s majority focused on for
the school teacher in Hosanna-Tabor, weighing the
significance of the principal’s title, assessing whether
her functions and job qualifications were sufficiently
“religious,” and analyzing her use of her title in
public settings.43 While the Second Circuit concluded
that “she held herself out as a spiritual leader” and
that she “performed many important religious
functions to advance [the school’s] Roman Catholic
mission,” thus finding her to fall under the
ministerial exception, this type of analysis itself
violates the basic principle that courts are
incompetent to judge the religious mission of an
organization and which employees must adhere to
the organization’s tenets of faith and practice in
order for the organization to fulfill that mission as it
sees best. As the Second Circuit observed earlier in
its decision,
Judges are not well positioned to determine
whether ministerial employment decisions rest
on practical and secular considerations or
fundamentally different ones that may lead to
Id. at 203.
Id. at 204-05.
43 Id. at 207-09.
41
42

20
results that, though perhaps difficult for a
person not intimately familiar with the religion
to understand, are perfectly sensible—and
perhaps even necessary—in the eyes of the
faithful. In the Abrahamic religious traditions,
for instance, a stammering Moses was chosen to
lead the people, and a scrawny David to slay a
giant.44
In Cannata v. Catholic Diocese of Austin,45 the
Fifth Circuit dealt with perhaps the “hardest” case
for the religious organization of those decided under
Hosanna-Tabor, hardest because the employee
arguably matched up in only one of the four fact
categories the Hosanna-Tabor majority relied upon.
The church fired its music director, and he claimed to
have no religious duties, as he only played the piano
and ran the sound system at mass and performed a
few, internal, administrative responsibilities for the
music program. The Fifth Circuit, relying on the
sworn statement of the priest that music was an
integral and important part of the mass, ruled that
the ministerial exception applied. It disallowed the
employee’s contrary statement that his duties were
not religious because that contention was a challenge
to church doctrine, a challenge that “government is
foreclosed from deciding by the Religion Clauses”:
“we may not second-guess whom the Catholic Church
may consider a lay liturgical minister under canon
law.”46 In so ruling, the Fifth Circuit relied on both
Id. at 203.
700 F.3d 169 (5th Cir. 2012).
46 Id. at 177-80; see also Sterlinski v. Cath. Bishop of Chi.,
934 F.3d 568 (7th Cir. 2019) (finding church organist
covered by exception).
44
45

21
Justice Thomas’s and Justice Alito’s concurrences,
concluding that the church had established the
“importance” of music to the mass and that the
employee had performed an “important” function
during the service.47
But one must ask what the result would have
been if the Fifth Circuit had considered the duties of
the music director not to be “important” to the
ministry, but only “tangential” or “peripheral.”
Although Justice Alito included among those who
obviously qualified as a “minister” for purposes of the
exception personnel who are “essential” or
“important” to “key” and “important” religious
activities,48 he at the same time declined to secondguess the “importance” to the school of the teacher’s
firing because of its stated reason that she had
violated the church doctrine of internal dispute
resolution. In doing so, he reasoned as follows:
The credibility of Hosanna-Tabor’s asserted
reason
for
terminating
respondent’s
employment could not be assessed without
taking into account both the importance that
the Lutheran Church attaches to the doctrine of
internal dispute resolution and the degree to
which that tenet compromised respondent’s
religious function. If it could be shown that this
belief is an obscure and minor part of Lutheran
doctrine, it would be much more plausible for
respondent to argue that this doctrine was not
the real reason for her firing. If, on the other
hand, the doctrine is a central and universally
47
48

700 F.3d at 180.
565 U.S. at 199, 204 (Alito, J., concurring).

22
known tenet of Lutheranism, then the church’s
asserted reason for her discharge would seem
much more likely to be nonpretextual. But
whatever the truth of the matter might be, the
mere adjudication of such questions would pose
grave problems for religious autonomy: It would
require calling witnesses to testify about the
importance and priority of the religious doctrine
in question, with a civil factfinder sitting in
ultimate judgment of what the accused church
really believes, and how important that belief is
to the church’s overall mission.
....
What matters in the present case is that
Hosanna-Tabor believes that the religious
function that respondent performed made it
essential that she abide by the doctrine of
internal dispute resolution; and the civil courts
are in no position to second-guess that
assessment.49
This states the law properly, and it harmonizes
Justice Alito’s views with those articulated by Justice
Thomas. The Religion Clauses require courts to give
full credit to a religious organization’s good-faith
judgment as to which employees are its ministers.
Justice Brennan stated it cogently in Amos: “we
deem it vital that, if certain activities constitute part
of a religious community's practice, then a religious
Id. at 205-06 (Alito, J., concurring); see also Sterlinski,
934 F.3d at 570; cf. Amos, 483 U.S. at 339 (noting that
requiring a court to determine what duties are “secular”
and what are “religious” would be an “intrusive inquiry
into religious belief” of a religious group).
49

23
organization should be able to require that only
members of its community perform those
activities.”50
IV.

Several Amici Demonstrate the
Importance That This Court Adopt
Justice Thomas’s Test for the Exception.

Justice Thomas’s formulation is critically
important for several of your amici, for the simple
reason that they do not fit easily into normal
religious classifications or, in the case of the church
school, do not track the organizational structure of
the Lutheran-Missouri Synod church school in
Hosanna-Tabor. Amicus Billy Graham Evangelistic
Association focuses principally on one aspect of the
mission of the Christian Church, evangelization.
BGEA believes that the work of evangelism is
primarily a spiritual endeavor that requires unity of
purpose and belief. BGEA conducts regular
devotional activities and provides other resources
and opportunities intended to enhance each
employee’s relationship with Jesus Christ and,
consequently, their personal spiritual preparedness
to serve effectively in the organization. But it does
not, like a local church, conduct normal worship
services in a church building. BGEA also provides
religious instruction through a variety of means and
media. But it does not, like a Christian school, teach
or catechize in a typical classroom setting. It is an
ecumenical ministry supported by thousands of
individuals and churches. In its employ are those
who fit comfortably into most definitions of minister,
such as its evangelists who preach at its evangelistic
50

483 U.S. at 342-43 (Brennan, J., concurring).

24
crusades. But there are other employees who work
with local churches to organize its evangelistic
events and follow up with those who respond to its
invitation to believe in Jesus Christ. And other
employees run associated evangelistic ministries,
such as the Billy Graham Library in Charlotte;
digital, radio and television broadcasts; telephone
ministry and internet evangelism; and BGEA’s Rapid
Response Team that dispatches crisis-trained
chaplains to assist persons beset by natural and
man-made disasters when and where they strike. All
of these employees—and yet others whose positions
BGEA’s leadership determined would somehow
support and extend its evangelistic efforts—are
instrumental to its religious mission. As a result,
BGEA requires each of them to share the ministry
goals and to adhere to the standards of conduct and
belief in its employee handbook as reproduced above
and in the appendix. (App’x 1a-3a.)
Amicus Samaritan’s Purse as its principal
mission focuses on another aspect of the calling of
the Christian Church—reaching out to those in need
of material assistance, while at the same time
presenting the answer to each person’s spiritual
needs with the good news of Jesus Christ. This
ministry is not subservient to that of evangelization,
but complementary to it; it is also a ministry to
which Christians are called. All Samaritan’s Purse
employees are actively involved in its daily devotions
and prayer ministry, and they directly further the
mission of the organization by interacting with
donors, the community at large, and those they
assist. They are literally the hands of Christ as they
meet the needs of others and, as a result,
Samaritan’s Purse requires all its employees to

25
commit to its Statement of Faith and Code of
Christian Conduct.
Otherwise, its important,
spiritually-driven mission would be undermined.
Amicus Forcey Christian School has many of
the same goals as the school in Hosanna-Tabor, but
its supporting church is non-denominational and
does not have the liturgical formality of Lutheran—
Missouri Synod churches. For instance, the school’s
teachers, while engaged in leading devotionals with
their children, are not “ordained” or required to be
members of the sponsoring church. However, all its
teachers and administrators are required to affirm a
statement of faith and conduct, and the church and
school sincerely believe that, to carry out the mission
of the school fully, such affirmation is essential.
(App’x 4a-12a.)
Amicus
Congressional
Prayer
Caucus
Foundation has the explicit religious purpose of
preserving and promoting the use of prayer and
other religious expression in the public square. To
fulfill that mission, it requires its employees to pray
daily as a group and to affirm a Christian statement
of faith. (App’x 13a-21a.)
Amicus ICECE is a ministry assisting our
country’s armed forces and serving explicitly
religious purposes, including the placement of
chaplains who are not sponsored by established
denominations.
In performing these religious
services, ICECE member chaplains must rely on
volunteer religious leaders and workers who provide
teaching and other ministries, such as music and
counseling, but who often are not ordained or from
the chaplain’s own faith group. An ICECE chaplain

26
has a duty in representing his sending church to
make sure the beliefs and practices of volunteers or
leaders who provide supporting services are in
harmony with church doctrine and practice, as
exhibiting a consistent religious message is critical to
effective ministry.
To suggest that courts are competent to
determine whether particular personnel of nontraditional ministry organizations like these amici
are “essential” or “important” by analogizing to the
teacher in Hosanna-Tabor, or by any other artificial
yardstick, conflicts with basic First Amendment
principles. Courts have no more competence to judge
the sincerity of a religious organization’s decision in
such matters than they have to judge religious
beliefs of an individual.51
Religious organizations draw the line for
which employees must adhere to the organization’s
faith and practice to meet its mission at different
places, but it is always a line informed by the
organization’s own religious beliefs. It is critical to
these groups that the government, through its antidiscrimination laws, not be allowed to restrict the
free exercise of their religion when they make those
decisions about their ministries.
CONCLUSION
The Ninth Circuit’s decisions should be
reversed. Before further encroachments are made on
the First Amendment freedoms of religious
organizations, this Court should provide additional
51

See Thomas v. Review Bd., 450 U.S. 707, 712-15 (1981).

27
guidance to the lower courts in this critically
important area by adopting Justice Thomas’s rule as
stated in his concurrence in Hosanna-Tabor.

Respectfully submitted
this 10th day of February 2020,
/s/ Frederick W. Claybrook, Jr
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
Rick@Claybrooklaw.com

Steven W. Fitschen
James A. Davids
National Legal Foundation
524 Johnstown Road
Chesapeake, VA 23322
David A. Bruce
205 Vierling Dr.
Silver Spring, Md. 20904

1a
APPENDIX
Excerpts from Billy Graham Evangelistic
Association Employee Handbook
I. BGEA and Your Ministry Employment
....
b. Mission Statement (01.02)
Continuing the lifelong work of Billy Graham, the
Billy Graham Evangelistic Association exists to
support and extend the evangelistic calling and
ministry of Franklin Graham by proclaiming the
Gospel of the Lord Jesus Christ to all we can by
every effective means available to us and by
equipping the church and others to do the same.
c. Distinct Objectives
• Represent Jesus Christ—Serve as ambassadors for
Christ in the public square.
• Cultivate prayer—Engage the church in prayer to
empower evangelism and discipleship.
• Proclaim the Gospel—Spread the Gospel of the
Lord Jesus Christ to all we can by every effective
means available to us.
• Disciple New Believers—Engage new believers and
transition them to local, Bible-teaching churches.
• Equip the Church for Evangelism—Provide
training and tools to equip the church in evangelism.
• Demonstrate Love in Action—Support the church
in meeting practical human needs.

2a
....
e. Christian Conduct (08.01)
As an ambassador of the Gospel of Jesus Christ and
of BGEA, each employee is expected to exhibit
conduct consistent with the highest degree of moral,
ethical, and Biblical integrity and fidelity. BGEA’s
standards for evaluating Christian conduct include
its Statement of Faith, Mission Statement,
Hallmarks, and various policies, as well as other
written or verbal guidance that may be provided
from time to time. BGEA has the right and discretion
to consider all of an employee’s conduct, whether at
work or away from work, in order to determine
consistency with its expectations for those members
of the body of Christ serving in this ministry.
....
h. Expectations for Ministry Employment
All employees must indicate and demonstrate
ongoing agreement with the following expectations:
• I acknowledge that the Lord Jesus Christ is my
personal Savior and that I am a personal
representative of Him.
• I understand that BGEA is a Christian
organization whose purpose is proclaiming the
message of the Gospel of the Lord Jesus Christ
throughout the world. • I agree that the purpose of
my employment with BGEA is to further its
Christian purpose and that I am prepared to support
its work through prayer and to assist in
accomplishing BGEA’s mission.

3a
• I understand that I must exhibit conduct that is
consistent with BGEA’s expectations, whether at
work or away from work, in keeping with Scriptural
teachings and principles as set forth in God’s Word,
BGEA’s Statement of Faith, and BGEA’s policies,
including Christian Conduct.
• I understand that BGEA has the right and the
responsibility to ensure that its Christian religious
purpose is carried on with the highest standards and
is not harmed or impeded by conduct that is
inconsistent with the Bible, BGEA’s Statement of
Faith, its Christian religious purpose, or its policies.
• I understand that any of my conduct that is not in
keeping with Scriptural teachings and principles as
set forth in God’s Word, BGEA’s Statement of Faith,
and BGEA’s policies is inconsistent with BGEA’s
Christian religious purpose.
• I understand that if my conduct is determined by
BGEA to be inconsistent with its Christian religious
purpose, the result will be corrective action up to and
including termination from employment.

4a
Excerpts from Forcey Christian School
Faculty Handbook 2019-2020
HISTORY OF FORCEY CHRISTIAN SCHOOL
....
Forcey Christian School operates under the auspices
of the Forcey Education Association, a non-profit
corporation affiliated with Forcey Bible Church. . . .
Please uphold Forcey Christian School, its staff and
students, in your daily prayers.
MISSION AND VISION OF FORCEY
CHRISTIAN SCHOOL
The FCS Vision: FCS seeks to educate students to
reach their full potential spiritually, academically,
cognitively, physically, socially and emotionally; who
pursue an enduring intimacy with Jesus Christ, and
engage believers and non-believers in their lifelong
journey for His glory.
The FCS Mission: The mission of Forcey Christian
School is to provide sound, excellent, biblically-based
education to the children of our church and
community in a Christ-centered school environment
where they learn under born-again, professional
teachers in rigorous academic programs that will
develop them into highly capable students, imbued
with the disciplines of Christian life and Christ-like
character for the benefit of society. (Rom. 12:1-2,
Matt 28: 18-20, Eph. 4: 1-16)
....

5a

Philosophy and Purpose:
The school functions as a ministry of FBC to the
community. The school is founded on the belief that
God has purposefully provided the foundation for
Christian education by creating all things and
providing us with His written word through His Son
and the Holy Spirit.
In our view, Christian
education is a response to God’s desire to teach and
train students to know, love and obey the Triune God
and to relate all knowledge, skill, and life practice to
Him. Forcey Christian School holds the conviction
that God’s plan appoints parents to be responsible for
the education and development of their children
(Ephesians 6:1-4 and Deuteronomy 6:4-9).
The
general purpose of FCS is to assist parents with this
responsibility, and to lead and support students in
discovering and developing their unique God-given
abilities.
FCS teaches truth from a Biblical
worldview in an atmosphere of Christian love and
discipline, striving to develop in the student’s life a
proficiency in academic skills, godly character traits,
and a life of service towards the Savior. Leading
students to become more fully devoted followers of
Christ is the school’s highest priority. Through our
daily program, the students are made aware of God
the Creator and of His special love for each one of
them.
Bible studies that reveal God’s care,
protection, and leadership will be presented to
ensure a firm foundation of trust in our caring,
loving, and holy God. The Bible is presented in all
classes as the source book for life, and Jesus Christ is
introduced as the Son of God, the Savior. Forcey
Christian School welcomes students without regard
to race, sex, or nationality. As part of Forcey Bible

6a
Church, the school operates independently of state
regulation and control, but will adhere to state and
county health and safety standards.
FCS is
committed to providing an educational environment
that encourages learning under the tutelage of
professional, committed Christian teachers.
....
CORE VALUES
• We recognize that parents bear the primary
responsibility for their child's education, and we
are committed to working with them and their
church to disciple each student.
• We make a commitment to maintain academic
excellence and to maximize every student's
potential.
• We are committed to hiring staff members who
are passionate, devoted followers of Christ who
love students.
• Students will learn how to process information
and to think critically in the context of a biblical
worldview.
• All students matter to God and have a right to
learn in a safe and secure environment.
• We will ensure that discipline will be purposeful,
directed toward the goal of self-discipline.
• Students are taught to love God with all their
heart, soul, mind, and strength and to love their
neighbor as themselves.
• We are committed to creating an environment
where the pursuit of full devotion to Christ is
expected and includes developing the habits of
personal responsibility and servanthood.

7a
....
APPENDIX 1: TEACHERS’ CODE OF ETHICS
Overview
Forcey Christian School teachers, believing that each
child is an image-bearer of God, recognize the
importance of helping students to grow academically,
physically, socially and spiritually. FCS teachers
accept the responsibility of adhering to the highest
ethical standards, acknowledging that God has called
them to the profession and has placed them in the
classroom not only to teach, but to model Christ in
their speech, conduct and relationships within the
school community.
I. The Teacher’s Commitment to Students
“Instruct them to do good, to be rich in good works, to
be generous and ready to share, storing up for
themselves a good foundation for the future, so that
they can take hold of that which is life indeed.”
(I Timothy 6:18)
The Forcey Christian School Teacher:
1.
2.
3.
4.
5.

Treats each child with respect, recognizing that
each possesses unique, God-given talents and
ability levels.
Demonstrates the fruit of the Spirit: love, joy,
peace,
patience,
kindness,
goodness,
faithfulness, gentleness and self-control.
Uses authority wisely and lovingly.
Exercises discipline justly and fairly.
Does not reveal confidential information
concerning students unless disclosure serves an
appropriate professional purpose.

8a
6.

Does not discriminate against any student on
the basis of race, color, sex, national or ethnic
origin
and
protects
students
from
discrimination.
II. The Teacher’s Commitment to Colleagues
“Let all be harmonious, sympathetic, brotherly,
kindhearted and humble in spirit.” (I Peter 3:8)

The Forcey Christian School Teacher:
1.
2.
3.
4.

Demonstrates honesty, love, respect, support
and encouragement toward colleagues, publicly
and privately.
Builds a collegial team through prayer and
cooperation.
Resolves differences with honesty and dignity
and in a loving manner.
Is respectful towards the administration and the
board and supports the expressed mission and
vision of the school.

III. The Teacher’s Commitment to Parents
“Children, obey your parents in the Lord, for this is
right.” (Ephesians 6:1)
The Forcey Christian School Teacher:
1.

2.

Makes every effort to establish a partnering
relationship with parents of students, realizing
they share the common goal of a quality, Christcentered education.
Keeps parents informed of their student’s
academic, social and spiritual development.

9a
3.
4.

Is respectful and understanding of the
traditions of diverse cultures represented in the
classroom.
Keeps confidential all information pertinent to
the student and family.

IV. The Teacher’s Commitment to
Professionalism
“Whatever you do, do your work heartily, as for the
Lord.” (Colossians 3:23)
The Forcey Christian School Teacher:
1.
2.
3.

Seeks opportunities to grow professionally.
Adheres to contractual conditions and strives to
perform all duties and responsibilities with
excellence.
Admirably represents the teaching profession
and the school throughout the community with
a life of integrity, honoring God.

APPENDIX 2: FCS LIFESTYLE STATEMENT
Forcey Christian School is a religious, nonprofit
organization representing Jesus Christ throughout
the local community. FCS requires its employees to
be born-again Christians, living their lives as
Christian role models (Rom. 10:9–10, 1 Tim. 4:12,
Luke 6:40) and conducting themselves in a way that
will not raise questions regarding their Christian
testimonies.
A lifestyle based on Biblical standards of moral
conduct should demonstrate integrity, appropriate
personal and family relationships, professional
conduct, and moral behavior. An employee is

10a
expected to display a teachable spirit, an ability to
share love for others, a willingness to live
contentedly under authority, and a commitment to
follow the Matthew 18 principle when an issue arises
with fellow employees or the administration.
Moral misconduct, which violates the bona fide
occupational qualification for employees to be
Christian role models, includes, but is not limited to,
promiscuity, homosexual behavior or any other
violation of the unique roles of male and female.
(Rom. 1:21-27; I Cor. 6:9-20). Forcey Christian School
believes that biblical marriage is limited to a
covenant relationship between a man and a woman.
FCS employees who fail to maintain a lifestyle based
on biblical standards of conduct may be subject to a
reprimand or, in some cases, dismissal from
employment. It is the goal of FCS that each employee
will have a lifestyle where “…He might have the preeminence.” Col. 1:18.
I declare that I am in agreement with the above
statements. My signature below indicates that I meet
the moral integrity standards and Christian role
model lifestyle requirements of FCS.
Applicant's signature:
_________________________________
Date:_____________________
Supervisor's signature after discussion:
_____________________________________________

11a

APPENDIX 3: DECLARATION
OF MORAL INTEGRITY FORM
Our school expects all of its employees, as well as its
volunteers who have unsupervised access to children,
to model the same Christian values and lifestyle that
it seeks to inculcate in its students. As an applicant
for a ministry position as an employee or as a
volunteer at this school, I, (print name)
_________________________________________,
recognize, understand, and agree to live by the
Christian moral standards of the school.
I declare that as a follower of Christ, I am not
engaging in and commit to not engage in
inappropriate sexual conduct. Inappropriate
conduct includes, but is not limited to, such
behaviors as the following: heterosexual activity
outside of marriage (e.g., premarital sex,
cohabitation, extramarital sex), homosexual
activity, sexual harassment, use of (including the
viewing of) pornographic material or websites,
and sexual abuse or improprieties toward minors
as defined by Scripture and federal or state law.
I declare that the above statement is factual and true.
My signature below indicates that I meet the moral
integrity standards and Christian role model lifestyle
requirements of Forcey Christian School.
__________________________________________________
Applicant’s signature
Date

12a

__________________________________________________
Administrator’s signature after discussion with
applicant/volunteer
_____________________ Date
“Honor marriage, and guard the sacredness of sexual
intimacy between wife and husband. God draws a
firm line against casual and illicit sex.” (Hebrews
13:4, The Message)
“A pupil is not superior to his teacher, but everyone
[when he is] completely trained (readjusted, restored,
set to rights, and perfected) will be like his teacher.”
(Luke 6:40, AMP)

13a

Excerpts from Congressional Prayer Caucus
Foundation, Inc., Employee Commitment
Our Vision
Protect religious freedom, preserve America’s JudeoChristian heritage and promote prayer.
....
Prayer with Employees
A private prayer time has been set for Staff, and all
Staff are required to join in prayer every day at the
designated time.
....
Calling
Our calling includes both introduction to and
encouragement to remain in a life of full devotion to
Jesus Christ (Colossians 3:17). We are charged with
encouraging, equipping, serving and sustaining
Christians. We do this by displaying our Christian
philosophies, values, missions and goals in
ministerial, members, employees and volunteers and
those whom our Foundation serves. Overt religious
purpose, as well as related religious purpose all serve
as methods that the Congressional Prayer Caucus
Foundation utilizes to instill our religious values and
beliefs, both expressly and by example. Guided by
Holy Scripture and the Holy Spirit, the
Congressional
Prayer
Caucus
Foundation’s

14a
Governing
Documents,
Doctrines,
Mission
Statement, Statements of Faith, Job Responsibility,
Positional Statements, Handbooks, Agreements and
Contracts and Website or Social Media Content
reflect our calling and all ministerial, members,
employees and volunteers are therefore subject to
them including discipline, mediation and termination
policies.
Community
The Congressional Prayer Caucus Foundation is
dedicated to serving and providing for its community.
We exist to foster a Christ-like environment of
persons subscribing to our religious beliefs and faith.
We believe that our success is derived from
participating in a larger religious community. For
this reason, individual members of our body play a
large role in furthering our mission and viewpoint as
a Foundation.
Associating with like-minded Christians reinforces
the Congressional Prayer Caucus Foundation’s
Christian purpose and is vital to the perpetuation of
our faith (2 Corinthians 6:14, 2 John 1:9-11, 1
Corinthians 15:33). We are committed to being and
making disciples who understand what it means to
follow Jesus Christ into a life of worship, fellowship,
sacrifice, service and being led by the Holy Spirit
(Matthew 28:19, Acts 1:8, John 15:16, Mark 16:15).
Our mission as the body of Christ is to participate,
share and encourage each other toward spiritual
growth (I Thessalonians 5:11, Hebrews 10:23-25,
Colossians 3:16).

15a
Involvement in our Foundation requires a tangible
commitment to our beliefs and mission as outlined in
the Congressional Prayer Caucus Foundation’s
Written Statements of Faith – and are therefore
subject to all of its discipline, mediation and
termination policies, which are incorporated herein
by reference, as if fully set forth herein.
Expression of Faith
The Congressional Prayer Caucus Foundation
intends to transmit our system of religious beliefs,
tradition, Christian morals, reverence and values.
We do so by engaging in the community and
individuals’ lives and through all activities in which
we participate. Likewise, we believe that all behavior
of members and representatives of the Foundation is
communicative in nature, exemplifying and
expressing our faith, both publically and privately (1
Peter 2:12). Any member or representative who
propounds a point of view contrary to our beliefs as
stated in our Written Statements of Faith, which are
incorporated herein by reference as if fully set forth
herein, will impair the Congressional Prayer Caucus
Foundation’s integrity and ability to disseminate its
religious views and message (James 4:4, 1
Corinthians 5:11-12) and therefore, are subject to
discipline, mediation and termination policies, which
are incorporated herein.
Outreach
We take very seriously the Biblical charge to be a
Christian presence in a secular world (Matthew 5:1416). Therefore, all activities that the Congressional
Prayer Caucus Foundation engages in are intended

16a
to further its religious purpose, as stated in our
Mission Statement. As such, all of our activities are
considered an outgrowth of the Congressional Prayer
Caucus Foundation’s mission to protect religious
freedom,
preserve
America’s
Judeo-Christian
heritage and promote prayer.
....
Discipline, Mediation and Termination Policy
The Congressional Prayer Caucus Foundation is an
organization representing the Christian church and
as such strives to present our doctrine in its fullness.
We further affirm that we hold, believe and practice
all that the Christian church teaches, believes and
proclaims to be true, as set forth in our Written
Statements of Faith, whether from the natural moral
law or revelation from God through Holy Scripture
and traditional teachings of the Christian church.
The Congressional Prayer Caucus Foundation
acknowledges that all ministerial, members,
employees and volunteers who engage in this
Foundation have a higher calling, according to which
they must not only avoid public contradiction of their
status as professional agents in the mission of the
Foundation, but are also called to conform their
hearts, minds and consciences, as well as their public
and private behavior, ever more closely to the truths
taught by Holy Scripture and through the
Foundation. Recognizing as we do that no person can
give perfect witness to these truths, the
Congressional
Prayer
Caucus
Foundation
professionals are nevertheless called to strive for
assent and fidelity.

17a

Failure to perform in accordance with the terms and
conditions of this contract as stated herein and in the
Written Statements of Faith are subject to discipline,
mediation and/or termination. Any activity or the
support of activities which espouse beliefs contrary to
the Congressional Prayer Caucus Foundation’s
teaching and Statements of Faith are sufficient cause
for termination. Further, refusal to foster, repeat,
advertise or disseminate views, messages or
statements in accordance with the Congressional
Prayer Caucus Foundation’s own can lead to
termination.
....
Final Authority
The Executive Director, President and Board of
Directors is the final authority on (1) scripture, faith,
morals and discipline; (2) formal employment or
membership requirements vis-à-vis eligibility,
morals, discipline, removal and rescission; (3)
Statements of Faith and Policy; (4) Standards of
Morals and Conduct; (5) internal dispute resolution;
and, (6) enforcement of conformity of belief and
practice relating to religious teaching and practice.
Any ministerial, member, employee or volunteer may
seek to clarify the Congressional Prayer Caucus
Foundation’s Positional Statements, Statements of
Faith and any other policy or belief in question.
Individuals should set an appointment with a
member of the final authority on such issues to
clarify his/her understanding.
Mediation

18a

Ministerials, members, employees or volunteers
submit to the designated final authority of the
Congressional Prayer Caucus Foundation to resolve
any disputes relating to policies and practices. Any
ministerial, member, employee or volunteer may
seek to move to mediation with a final authority and
optional external third party to discuss the
Congressional
Prayer
Caucus
Foundation’s
Positional Statements, Statements of Faith and any
other policy or belief in dispute. Individuals should
set an appointment with a member of the final
authority to proceed to mediation.
Automatic Termination Clause
All ministerial, member, employee or volunteer must
recognize the religious nature of the Congressional
Prayer Caucus Foundation and agree that the
Foundation has the right to dismiss one for public
immorality, scandal or rejection of the official
teachings, doctrine or policies, thereby terminating
any and all rights that one may have hereunder
resulting in automatically forfeiture of all privileges
for any conduct or avocation of conduct that stands in
contradiction to the Foundation’s stated beliefs,
policies and mission as set forth herein. Such
contrary beliefs or practices would make me unfit to
advance the Foundation’s mission as it would impede
and burden the integrity and religious mission of the
Foundation.
....
Employee Commitment

19a
The following is a declaration of statements we
believe each employee affiliated with the
Congressional Prayer Caucus Foundation can agree
with and commit to uphold in keeping with the spirit
and mission of the Congressional Prayer Caucus
Foundation
I believe





That Jesus Christ is the Son of God; was
crucified, died and was resurrected; is the Way
the Truth and the Life; and to see the kingdom
of God a person must be born again and choose
to follow Jesus Christ as Lord and Savior.
That the Bible is the inspired Word of God.
That the Holy Spirit indwells every believer
and His power and gifts are active today.

20a
Excerpts from International Conference Of
Evangelical Chaplain Endorsers Bylaws
II. Purposes and Responsibilities
ICECE’s purposes and responsibilities are:
a. To serve as a liaison between affiliated
Endorsers and the Armed Forces, Veterans
Administration, Bureau of Prisons, Emergency
Services and other agencies that require
chaplaincy services under the Free Exercise
Clause of the U.S. Constitution or to maintain
professional standards and necessary spiritual
support, and to manifest to them and the
nation that there are common areas of
spiritual and moral convictions and concerns
to which those within the Conference affirm
united commitment.
....
III.

Membership

a. Members shall hold as matters of faith and
conviction the seven faith statements listed
below, the rejection of which in word or
practice
shall
constitute
a
voluntary
withdrawal from ICECE.
i.
The Bible is the inerrant, infallible Word
of God and the absolute standard for
moral conduct, faith and practice;
ii. The doctrine of the Trinity as defined by
the Athanasian Creed;

21a
iii.

That Jesus Christ is Lord, the only
begotten Son of God born of the virgin
Mary;
iv. Salvation through repentance and faith
in the redeeming sacrifice of Christ on the
cross;
v. The physical resurrection and ascension
of Jesus Christ, and His Second Coming;
vi. The New Testament standard for those
who rule the church and teach doctrine,
permits only ordained men to serve as
Chaplains; and,
vii. Marriage is the legal and blessed union of
one man, who is born a male, and one
woman, who is born a female.
....

